IN THE SUPREME COURT OF THE UNITED STATES

No. 19-706

FACEBOOK, INC.,

Petitioner,
v.

CARLO LICATA. ADAM PEZEN, AND NIMESH PATEL,
INDIVIDUALLY AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED,

Respondents.

CERTIFICATE OF SERVICE

I, Cory L. Andrews, counsel for amicus curiae Washington Legal Foundation
(WLF) and a member of the Bar of this Court, certify that on this 13th day of
December, 2019, three copies of WLF’s brief were posted via first-class mail,
addressed to the following:

Neal Kumar Katyal

Hocan LOVELLS US LLP

555 Thirteenth Street, NW
Washington, DC 20004

(202) 673-5528
neal.katyal@hoganlovells.com
Counsel for Petitioner

Ryan David Andrews

EDELSON PC

350 North LaSalle Street, Suite 1400
Chicago, IL 60654

(812) 589-6374
randrews@edelson.com

Counsel for Respondents
Under Supreme Court Rule 29.3, I certify that I delivered an electronic copy
of WLF’s brief to counsel of record at the e-mail addresses above, and that all

parties required to be served have been served.

hong od Clb >

Cory L. Andrews

WASHINGTON LEGAL FOUNDATION
2009 Massachusetts Ave., NW
Washington, DC 20036

(202) 588-0302
candrews@wlf.org

Counsel for Amicus Curiae
Washington Legal Foundation
Dated: December 13, 2019
